Audit Report




OIG-06-012
Audit of the Exchange Stabilization Fund’s Fiscal Years 2005
and 2004 Financial Statements


December 5, 2005




Office of
Inspector General
Department of the Treasury
                                        DEPARTMENT OF THE TREASURY
                                              W ASHINGTON, D.C. 20220


                                               December 5, 2005
     OFFICE OF
INSPECTOR GENERAL




            MEMORANDUM FOR CLAY LOWERY
                           ASSISTANT SECRETARY FOR INTERNATIONAL AFFAIRS

            FROM:                   William H. Pugh,
                                    Deputy Assistant Inspector General
                                        for Financial Management and Information
                                        Technology Audits

              SUBJECT:               Audit of the Exchange Stabilization Fund’s Fiscal Years 2005
                                     and 2004 Financial Statements


            I am pleased to transmit the attached audited Exchange Stabilization Fund (ESF)
            financial statements for fiscal years (FY) 2005 and 2004. We contracted with the
            independent certified public accounting firm Clifton Gunderson LLP to audit the
            ESF’s FYs 2005 and 2004 financial statements. The contract required that the
            audit be performed in accordance with generally accepted government auditing
            standards and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by Clifton Gunderson LLP, are incorporated in the
            attachment:

                    •   Independent Auditor’s Report;
                    •   Independent Auditor’s Report on Internal Control; and
                    •   Independent Auditor’s Report on Compliance with Laws and Regulations.

            In its audit, Clifton Gunderson LLP found:

                •   the financial statements present fairly, in all material respects, the financial
                    position as of September 30, 2005 and 2004, and the results of its
                    operations and its cash flows for the years then ended in conformity with
                    accounting principles generally accepted in the United States of America;
                •   no matters involving internal control and its operation that are considered
                    material weaknesses; and
                •   no instances of reportable noncompliance with laws and regulations tested.

            In connection with the contract, we reviewed Clifton Gunderson LLP’s reports and
            related documentation and inquired of its representatives. Our review, as
            differentiated from an audit in accordance with generally accepted government
            auditing standards, was not intended to enable us to express, and we do not
            express, an opinion on the financial statements or conclusions about the
effectiveness of internal control or compliance with laws and regulations. Clifton
Gunderson LLP is responsible for the attached auditor’s reports dated
October 21, 2005 and the conclusions expressed in the reports. However, our
review disclosed no instances where Clifton Gunderson LLP did not comply, in all
material respects, with generally accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5400, or a
member of your staff may contact Mike Fitzgerald, Director, Financial Audits at
(202) 927-5789.

Attachment
DEPARTMENT OF THE TREASURY,
  Exchange Stabilization Fund




       FINANCIAL STATEMENTS

     September 30, 2005 and 2004
                                               TABLE OF CONTENTS




                                                                                                                            PAGE

INDEPENDENT AUDITOR’S REPORT ...................................................................................1

INDEPENDENT AUDITOR’S REPORT ON
  INTERNAL CONTROL...........................................................................................................3

INDEPENDENT AUDITOR’S REPORT ON
  COMPLIANCE WITH LAWS AND REGULATIONS........................................................4

POLICY AND OPERATIONS STATEMENTS ........................................................................5

FINANCIAL STATEMENTS

    Statements of Financial Position................................................................................................8
    Statements of Income and Retained Earnings ...........................................................................9
    Statements of Cash Flows........................................................................................................10

    Notes to Financial Statements..................................................................................................11
A1
                                          Independent Auditor’s Report


To the Office of Inspector General
 of the Department of the Treasury and the
 Assistant Secretary for International Affairs


We have audited the accompanying statements of financial position of the U. S. Department of
the Treasury’s Exchange Stabilization Fund (ESF) as of September 30, 2005 and 2004, and the
related Statements of Income and Retained Earnings, and Statements of Cash Flows for the years
then ended. These statements are the responsibility of ESF’s management. Our responsibility is
to express an opinion on these statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America; and the standards applicable to financial audits contained in Government
Auditing Standards issued by the Comptroller General of the United States. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free of material misstatement. An audit includes examining, on a test
basis, evidence supporting the amounts and disclosures in the financial statements. An audit also
includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall presentation of the financial statements. We
believe that our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of ESF as of September 30, 2005 and 2004, and the results of its operations
and its cash flows for the years then ended in conformity with accounting principles generally
accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our reports dated
October 21, 2005, on our consideration of ESF’s internal control over financial reporting relating
to its financial statements and on our tests of ESF’s compliance with certain provisions of laws
and regulations relating to its financial statements. The purpose of those reports is to describe
the scope of our testing of internal control over financial reporting and compliance and the
results of that testing and not to provide an opinion on internal control over financial reporting or
compliance. Those reports are an integral part of our audit performed in accordance with
Government Auditing Standards and should be read in conjunction with this report in
considering the results of our audit.




Offices in 13 states and Washington, DC               1                                      h
Our audits were performed for the purpose of forming an opinion on the accompanying financial
statements taken as a whole. The policy and operations statements are presented for purposes of
additional analysis and are not a required part of the financial statements. Such information has
not been subjected to the auditing procedures applied in the audit of the basic financial
statements and, accordingly, we express no opinion or any other form of assurance on it.
However, we compared the information for consistency with the financial statements and, based
on these limited procedures, we found no material inconsistencies.


a1
Calverton, Maryland
October 21, 2005




                                               2
A1
                               Independent Auditor’s Report On Internal Control


To the Office of Inspector General
 of the Department of the Treasury and the
 Assistant Secretary for International Affairs


We have audited the financial statements of the U. S. Department of the Treasury’s Exchange
Stabilization Fund (ESF) as of September 30, 2005, and have issued our report thereon dated
October 21, 2005. We conducted our audit in accordance with auditing standards generally
accepted in the United States of America; and the standards applicable to financial audits
contained in Government Auditing Standards, issued by the Comptroller General of the United
States.

In planning and performing our audit, we considered ESF’s internal control over financial
reporting in order to determine our auditing procedures for the purpose of expressing an opinion
on the financial statements and not to provide an opinion on the internal control over financial
reporting. Our consideration of the internal control over financial reporting for ESF’s financial
statements would not necessarily disclose all matters in the internal control over financial
reporting for its financial statements that might be a material weakness. A material weakness is
a condition in which the design or operation of one or more of the internal control components
does not reduce to a relatively low level the risk that misstatements caused by error or fraud in
amounts that would be material in relation to the financial statements being audited may occur
and not be detected within a timely period by employees in the normal course of performing their
assigned functions. We noted no matters involving the internal control over financial reporting
and its operation that we consider to be a material weakness.

This report is intended solely for the information and use of the management of ESF, the
Department of the Treasury Office of Inspector General, the Office of Management and Budget
and Congress, and is not intended to be and should not be used by anyone other than these
specified parties.


a1
Calverton, Maryland
October 21, 2005




Offices in 13 states and Washington, DC              3                                   h
A1
            Independent Auditor’s Report On Compliance With Laws and Regulations


To the Office of Inspector General
 of the Department of the Treasury and the
 Assistant Secretary for International Affairs


We have audited the financial statements of the U. S. Department of the Treasury’s Exchange
Stabilization Fund (ESF) as of September 30, 2005, and have issued our report thereon dated
October 21, 2005. We conducted our audit in accordance with auditing standards generally
accepted in the United States of America; and the standards applicable to financial audits
contained in Government Auditing Standards, issued by the Comptroller General of the United
States.

As part of obtaining reasonable assurance about whether ESF’s financial statements are free of
material misstatement, we performed tests of its compliance with certain provisions of laws and
regulations, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts. However, providing an opinion on compliance
with those provisions was not an objective of our audit and, accordingly, we do not express such
an opinion. The results of our tests of compliance disclosed no instances of noncompliance that
are required to be reported under Government Auditing Standards.

This report is intended solely for the information and use of the management of ESF, the
Department of the Treasury Office of Inspector General, the Office of Management and Budget
and Congress, and is not intended to be and should not be used by anyone other than these
specified parties.


a1
Calverton, Maryland
October 21, 2005




Offices in 13 states and Washington, DC          4                                      h
                                Exchange Stabilization Fund
                              Policy and Operations Statements
                                       Fiscal Year 2005


The Nature and Function of the Exchange Stabilization Fund

The Gold Reserve Act of 1934 established a fund to be operated by the Secretary of the
Treasury, with the approval of the President. Section 10 of the Act provided that “For the
purpose of stabilizing the exchange value of the dollar, the Secretary of the Treasury, with the
approval of the President, directly or through such agencies as he may designate, is authorized,
for the account of the fund established in this section, to deal in gold and foreign exchange and
such other instruments of credit and securities as he may deem necessary to carry out the purpose
of this section.” To this end, the Congress, in 1934, appropriated to the Exchange Stabilization
Fund (ESF) the sum of $2 billion out of the increment resulting from the reduction in the “weight
of the gold dollar.” Subsequent amendments to the Gold Reserve Act approved the operation of
the ESF through June 30, 1945. Section 7 of the Bretton Woods Agreements Acts, approved
July 31, 1945, continued its operations permanently.

The Bretton Woods Agreements Act also directed the Secretary of the Treasury to pay $1.8
billion from the ESF to the International Monetary Fund (IMF), for the initial U.S. quota
subscription in the IMF, thereby reducing the ESF’s appropriated capital to $200 million.

Reflecting termination of the fixed exchange rate system, legislation enacted in 1976 (P.L. 94-
564, effective April 1, 1978, the date of entry into force of the Second Amendment of the IMF
Articles of Agreement) amended the language of Section 10 of the Gold Reserve Act to specify
that the ESF is to be utilized as the Secretary “may deem necessary to and consistent with the
United States obligations in the International Monetary Fund.” In 1977, P.L. 95-147 further
amended Section 10 of the Gold Reserve Act. Following codification, Section 10 now provides
as follows:

   Consistent with the obligations of the Government in the International Monetary Fund on
   orderly exchange arrangements and a stable system of exchange rates, the Secretary or an
   agency designated by the Secretary, with the approval of the President, may deal in gold,
   foreign exchange, and other instruments of credit and securities the Secretary considers
   necessary. However, a loan or credit to a foreign entity or government of a foreign country
   may be made for more than 6 months in a 12-month period only if the President gives
   Congress a written statement that unique or emergency circumstances require the loan or
   credit be for more than 6 months (31 U.S.C. 5302 (b)).

Pursuant to the Special Drawing Rights Act of 1968 (P.L. 90-349, amended by P.L. 94-564,
which was approved October 18, 1976 and became effective April 1, 1978), Special Drawing
Rights (SDRs) allocated by the IMF to the United States or otherwise acquired by the United
States are resources of the ESF.




                                               5
Section 286p of Title 22 of the United States Code allows for SDRs to be
monetized/demonetized through the issuance/redemption by the Secretary of the Treasury of
SDR certificates to the Federal Reserve Banks in exchange for dollars. The total amount of SDR
certificates outstanding cannot exceed the dollar equivalent of ESF (i.e., U.S.) holdings of SDRs;
such certificates are a liability of the ESF.

Foreign Currency Operations

During fiscal year 2005, the ESF engaged in no market transactions.

a. Euros and Japanese Yen

The ESF had a net valuation loss of $568.8 million on its holdings of euros and yen. The ESF
had investment income of $283.5 million equivalent on its euro assets and $0.7 million
equivalent in its yen assets.

b. Mexico

In November 2004, the Treasury and Federal Reserve Bank of New York renewed the Exchange
Stabilization Agreement with Mexico for another year to December 2005.

SDR Operations

As of September 30, 2005, U.S. holdings (assets) of SDRs totaled SDR 5.7 billion ($8.2 billion
equivalent), a net decrease of SDR 3.0 billion during Fiscal Year 2005. However, as the SDR
appreciated against the dollar in this period, there was a net valuation loss of $53.8 million on
U.S. holdings of SDRs. The ESF reimbursed the Treasury’s General Fund $315.9 million for
SDRs received from the IMF as remuneration on the U.S. reserve position in the IMF. The ESF
earned interest of $280.9 million equivalent on its SDR holdings.

During the fiscal year, the ESF sold SDR 3.3 billion to Argentina. Of this amount, SDR 1.2
billion were sold in February 2005, and SDR 2.1 billion were sold in August 2005, at prevailing
SDR/dollar exchange rates.

As of September 30, 2005, cumulative allocations to (liabilities of) the United States totaled SDR
4.9 billion ($7.1 billion equivalent). These liabilities would come due only in the event of
liquidation of, or U.S. withdrawal from, the SDR Department of the IMF, or cancellation of
SDRs.

There were $2.2 billion of SDR certificates that had been issued to the Federal Reserve System
prior to Fiscal Year 2005 and remained outstanding at the end of the fiscal year.




                                                6
Income and Expense

Interest revenue totaled $887.5 million, consisting of $322.4 million in interest on dollar
holdings invested in U.S. Government securities, $280.9 million equivalent in interest on SDR
holdings, and $284.2 million equivalent in interest on foreign currency investments.

Interest expense totaled $176.2 million, which included $175.7 million in interest charges on
SDR Allocations and $0.5 million paid by the ESF to the Treasury General Fund on the dollar
counterpart of SDRs received as remuneration on the U.S. reserve position in the IMF.




                                             7
DEPARTMENT OF THE TREASURY
EXCHANGE STABILIZATION FUND
STATEMENTS OF FINANCIAL POSITION
(In Thousands)

As of September 30                                     2005             2004

Assets

Cash and Cash Equivalents (Note 2)
   U.S. Government Securities                      $   15,237,881   $   10,318,702
   Foreign Currency Denominated Assets                  6,575,463        5,300,126
Total Cash and Cash Equivalents                        21,813,344       15,618,828

Other Foreign Currency Denominated
   Assets (Note 3)                                      3,557,109        3,583,758
Special Drawing Right Holdings (Note 4)                 8,244,662       12,781,984
Investment Securities, Held to Maturity (Note 5)        9,109,414       10,636,979
Accrued Interest Receivable                               161,554          168,074

Total Assets                                       $   42,886,083   $   42,789,623


Liabilities and Equity

Liabilities
Certificates Issued to Federal Reserve
   Banks (Note 6)                                  $    2,200,000   $    2,200,000
Special Drawing Right Allocations (Note 4)              7,101,673        7,197,361
Accrued Expenses and Other                                 32,172           23,618

Total Liabilities                                  $    9,333,845   $    9,420,979

Equity
Appropriated Capital                               $      200,000   $      200,000
Retained Earnings                                      33,352,238       33,168,644
Total Equity                                           33,552,238       33,368,644

Total Liabilities and Equity                       $   42,886,083   $   42,789,623




                                              8
DEPARTMENT OF THE TREASURY
EXCHANGE STABILIZATION FUND
STATEMENTS OF INCOME AND RETAINED EARNINGS
(In Thousands)

Years Ended September 30                                2005           2004

Interest Revenue:
    Interest on U. S. Government Securities         $     322,449 $       116,178
    Interest on Foreign Currency
       Denominated Assets                                 156,568         161,028
    Interest on Special Drawing Right Holdings            280,850         212,934
    Interest on Investment Securities                     127,679          95,985
Total Interest Revenue                              $     887,546 $       586,125

Interest Expense
    Interest on Special Drawing Right Allocations   $     175,704 $       121,496
    Interest on Special Drawing Right Received
       as Remuneration by the U.S. Treasury                   466             359
Total Interest Expense                              $     176,170 $       121,855

Net Interest Revenue                                $     711,376 $       464,270

Net Gains (Losses)
   Net Gain (Loss) on Valuation of:
       Special Drawing Rights                       $       41,587 $      142,145
       Foreign Currency Denominated Assets               (568,846)        767,243
Total Net (Losses) Gains                            $    (527,259) $      909,388

Other Expenses
   International Monetary Fund Annual
       Assessment                                   $          523 $          475

Net Income                                          $     183,594 $     1,373,183

Retained Earnings, Beginning of Year                $   33,168,644 $   31,795,461

Retained Earnings, End of Year                      $   33,352,238 $   33,168,644




                                              9
DEPARTMENT OF THE TREASURY
EXCHANGE STABILIZATION FUND
STATEMENTS OF CASH FLOWS
(In Thousands)
Years Ended September 30                                    2005           2004
Cash Flows from Operating Activities:
     Interest Received on:
        U.S. Government Securities                     $     322,449 $       116,178
        Foreign Currency Denominated Assets                  158,146         162,873
        Investment Securities                                154,160         115,667
    Commissions Received on Credit Facility                                        -
    Net (Loss) Gain on Valuation of Foreign
       Currency Denominated Assets                          (568,846)        767,243
    Other                                                    (22,229)       (76,412)
Net Cash Provided by Operating Activities              $       43,680 $    1,085,549
Cash Flows from Investing Activities:
    Net Decrease ( Increase) in Foreign Currency
      Denominated Assets                               $       26,649 $      (40,498)
    Net Decrease (Increase) in Investment Securities        1,527,565     (1,685,067)
    Purchases of Special Drawing Rights
       Received as Remuneration by the
       U.S. Treasury and Related Interest                   (316,482)       (299,891)
    Sales of Special Drawing Rights                         4,913,104              -
Net Cash Provided by (Used in) Investing Activities    $    6,150,836 $   (2,025,456)
Net Increase (Decrease) in Cash
   and Cash Equivalents                                $    6,194,516 $    (939,907)
Cash and Cash Equivalents, Beginning of Year           $   15,618,828 $   16,558,735
Cash and Cash Equivalents, End of Year                 $   21,813,344 $   15,618,828
Reconciliation of Net Income to Net
  Cash Provided by Operating Activities
Net Income                                             $     183,594 $     1,373,183
Adjustments to Reconcile Net Income to Net
  Cash Provided by Operating Activities:
   Decrease (Increase) in Special Drawing Right
       Holdings Due to Valuation                       $       53,828 $    (334,244)
   Net Interest Received in Special Drawing Rights          (113,129)       (85,382)
   Decrease (Increase) in Accrued Interest
       Receivable                                              6,520        (65,507)
   (Decrease) Increase in Special Drawing Right
       Allocations Due to Valuation                          (95,687)        192,062
   Increase in Accrued Expenses and Other                       8,554          5,437
Total Adjustments                                      $    (139,914) $    (287,634)
Net Cash Provided by Operating Activities              $      43,680 $     1,085,549




                                               10
DEPARTMENT OF THE TREASURY
EXCHANGE STABILIZATION FUND
NOTES TO FINANCIAL STATEMENTS

September 30, 2005 and 2004

Note 1. Summary of Significant Accounting Policies
The Exchange Stabilization Fund (ESF) was established as a result of the Gold Reserve Act of
1934, as amended, to be operated by the Secretary of the Treasury, with the approval of the
President, consistent with the obligations of the U.S. Government in the International Monetary
Fund (IMF) on orderly exchange arrangements and a stable system of exchange rates. To this
end, the Secretary of the Treasury may deal in gold, foreign exchange, and other instruments of
credit and securities.

A. Basis of Accounting & Presentation

The ESF has historically prepared its financial statements in accordance with generally accepted
accounting principles, based on accounting standards issued by the Financial Accounting
Standards Board (FASB), the private-sector standards-setting body. The Federal Accounting
Standards Advisory Board (FASAB) was designated by the American Institute of Certified
Public Accountants (AICPA) as the standards-setting body for financial statements of federal
government entities, with respect to the establishment of generally accepted accounting
principles. FASAB has indicated, however, that financial statements prepared based upon
accounting standards published by the FASB may also be regarded as in accordance with
generally accepted accounting principles for those federal entities, such as the ESF, that have
issued financial statements based upon FASB accounting standards in the past. Accordingly,
consistent with historical reporting, the ESF financial statements are presented in accordance
with accounting standards published by the FASB. In accordance with generally accepted
accounting principles, the preparation of financial statements requires the use of management to
make estimates and assumptions that affect the reported amounts of assets and liabilities and
disclosures of contingent assets and liabilities at the date of the financial statements and the
reported amounts of revenues and expenses during the reporting period. Actual results could
differ from those estimates.

B. Fair Values of Financial Instruments

Cash and Cash Equivalents, which consist of U.S. Government securities and Foreign Currency
Denominated Assets (FCDA), are reported in the Statement of Financial Position at amounts that
approximate their fair values. The fair value of Investment Securities is based upon quoted
market prices (See Note 5). FCDA, Other FCDAs, Special Drawing Right (SDR) Holdings, and
SDR Allocations have been revalued in the Statement of Financial Position, using current
exchange rates, to amounts which approximate fair value. The SDR Certificates issued to Federal
Reserve Banks (FRB) are reflected on the Statement of Financial Position at their face value.




                                               11
Note 1. Summary of Significant Accounting Policies (continued)
It is not practicable to estimate the fair value of these Certificates issued to FRBs since these
Certificates contain no specific terms of repayment. ESF enters into guarantee agreements which
represent commitments by Treasury with lenders and/or investors that provide for repayment of
all or part of the principal and/or interest on certain debt obligations of a borrower and /or issuer.
The ESF is exposed to credit risk on guarantees in the event that it has to honor a guarantee and
is unable to recover from the borrower the amounts advanced under the guarantee. It is not
practicable to estimate the fair value of these guarantee agreements because no similar
agreements that have comparable credit risk could be readily identified. Therefore, excessive
costs would be incurred to estimate the fair value of these guarantee agreements.

C. Translation of Foreign Currency Denominated Assets and Liabilities

In accordance with Statement of Financial Accounting Standards (SFAS) No. 52, "Foreign
Currency Translation, FCDA and liabilities are revalued daily to reflect current exchange rates in
effect as of the reporting date. The gains or losses resulting from changes in exchange rates are
reported separately in the Statement of Income and Retained Earnings.

D. U.S. Government Securities

ESF invests dollars in excess of its immediate needs in overnight, non-marketable U.S.
Government securities issued by the Treasury. The interest rate paid on the investments is the
overnight repurchase agreement rate as established by the Bureau of Public Debt.

Note 2. Cash and Cash Equivalents
Cash equivalents are short-term, highly liquid investments that are both readily convertible to
known amounts of cash, and so near their maturity that they present insignificant risk of change
in value due to changes in interest rates. Generally, only investments with original maturities of
three months or less qualify under that definition. U.S. Government securities and FCDAs with
original maturities of three months or less, except for foreign currencies acquired under swap
agreements with developing countries, are treated as cash equivalents.

The ESF invests a portion of its European Euro holdings through repurchase agreements in
securities issued by, and backed by the full faith and credit of the Federal Republic of Germany.
As of September 30, 2005 and September 30, 2004 the amounts of repurchase agreements were
approximately $1.9 billion. These repurchase agreements are considered to be FCDAs with
original maturities of three months or less, which are treated as cash equivalents, as discussed
above. Such investments are made by the Federal Reserve Bank of New York (FRBNY), as
fiscal agent of the Treasury, in connection with the ESF’s participation in such repurchase
agreements. In this capacity, FRBNY enters into agreements under which German government
securities are purchased from, and subsequently resold to, private counterparties. Such
transactions are settled through a tri-party agent, Deutsche Bank. The securities are held by
Deutsche Bank for FRBNY pending resale and are not transferred back to a private counterparty
upon resale until cash has been received. The FRBNY instructs the tri-party agent on matters


                                                 12
Note 2.        Cash and Cash Equivalents (continued)
related to these investments. The amounts held as of September 30, 2005 and September 30,
2004 were as follows:

September 30 (In Thousands)                  2005           2004
Cash and Cash Equivalents:

U. S. Government Securities             $15,237,881      $10,318,702

FCDAs:

       European Euro                   $ 3,855,973       $ 3,865,689
       Japanese Yen                    $ 2,719,490       $ 1,434,437
Total Foreign Currency
 Denominated Assets                    $ 6,575,463       $ 5,300,126

Total Cash and Cash Equivalents        $21,813,344       $15,618,828

Note 3. Other FCDAs
Operations of the ESF result in the holding of various foreign currencies. The ESF normally
invests its foreign currency holdings in interest bearing assets issued by or held through foreign
governments or monetary authorities. Other FCDAs are assets with maturities greater than three
months, and include foreign currencies acquired under swap agreements with various countries
(See Note 7).

September 30 (In Thousands)                  2005           2004
Other FCDAs:

   European Euro                        $ 3,557,109      $ 3,583,758

Total Other FCDAs                      $ 3,557,109       $ 3,583,758

Note 4. Special Drawing Rights (SDR)
The SDR is an international reserve asset created by the IMF. It was created as a supplement to
existing reserve assets, and on several occasions SDRs have been allocated by the IMF to
members participating in the IMF’s SDR department. Its value as a reserve asset derives,
essentially, from the commitments of participants to hold and accept SDRs and to honor various
obligations connected with its proper functioning as a reserve asset.




                                                13
Note 4. Special Drawing Rights (SDR) (Continued)
Pursuant to the Special Drawing Rights Act of 1968, as amended, SDRs allocated to or otherwise
acquired by the United States are resources of ESF. SDRs, once allocated, are permanent
resources unless:

     a. they are canceled by an 85 percent majority decision of the total voting power of the
        Board of Governor’s;

     b. the SDR Department of the IMF is liquidated;

     c. the IMF is liquidated; or

     d. the United States chooses to withdraw from the IMF or terminate its participation in the
        SDR Department.
.
Except for the payment of interest and charges on SDR allocations to the United States, the
payment of the ESF’s liability related to the SDR allocations is conditional on events listed
above, in which the United States has a substantial or controlling voice. Allocations of SDRs
were made on January 1, 1970, 1971, 1972, 1979, 1980 and 1981. Since 1981, the IMF has
made no further allocations of SDRs. As of September 30, 2005 and September 30, 2004, the
amounts of SDR allocations was the equivalent of $7.1 billion and $7.2 billion, respectively.

On a daily basis, the IMF calculates the value of the SDR using the market value, in terms of the
U.S. dollar, of each of the four freely usable weighted currencies, as defined by the IMF. These
currencies are the U.S. dollar, the European Euro (components consist of the French and German
weights), the Japanese yen, and the pound sterling. The ESF’s SDR holdings and allocations are
revalued monthly based on the SDR valuation rate calculated by the IMF, and an unrealized gain
or loss on revaluation is recognized.

During Fiscal Years (FY) 2005 and 2004, the ESF purchased, at the prevailing rates, $316
million and $300 million, respectively, equivalent of SDRs received from the IMF by the
General Fund of the U.S. Government as remuneration (interest) on the U.S. reserve position in
the IMF, and paid the General Fund $0.5 million and $0.4 million in fiscal years 2005 and 2004,
respectively, in interest on dollars due the General Fund in return for SDRs received as
remuneration. ESF sold SDRs in FY 2005 to Argentina in the amount of $4.9 billion, but did not
sell or purchase SDRs from participating members during FY 2004.




                                               14
Note 4.        Special Drawing Rights (SDR) (Continued)
The following charts reflect the actual activity (i.e. amounts paid and received) related to SDRs
during fiscal years 2005 and 2004.

As of September 30, 2005 (In Thousands)                        SDR        Dollar Equivalent
Special Drawing Rights:

Beginning Balance:                                           8,701,206           $12,781,984
 Interest Received on Holdings                                 187,609               280,786
 Interest Paid on Allocations                                 (111,438)             (166,673)
 Remunerations                                                 210,985               315,907
 Reimbursement                                                      74                   108
 IMF Annual Assessment                                           (343)                  (518)
 Sales                                                      (3,300,000)           (4,913,104)
 Net Loss on Valuation of Holdings                               -                   (53,828)
Ending Balance:                                              5,688,093           $ 8,244,662

As of September 30, 2004 (In Thousands)                       SDR          Dollar Equivalent
Special Drawing Rights:

Beginning Balance:                                          8,436,531            $12,062,467
 Interest Received on Holdings                                138,902                202,232
 Interest Paid on Allocations                                 (79,689)             (116,016)
 Remunerations                                                205,782                299,532
 IMF Annual Assessment                                           (320)                 (475)
 Net Gain on Valuation of Holdings                              -                    334,244
Ending Balance:                                             8,701,206            $12,781,984

Note 5.        Investments and Related Interest
In accordance with SFAS 115, “Accounting for Certain Investments in Debt and Equity Securities”,
securities that the ESF has both the positive intent and ability to hold to maturity are classified as
investment securities held to maturity and carried at historical cost, adjusted for amortization of
premiums and accretion of discounts. Interest on investment securities, amortization of premiums,
and accretion of discounts are reported in interest on investment securities.

The following schedule shows investment securities at their amortized cost and by year of
maturity as of September 30, 2005 and September 30, 2004. As of August 2005, Japanese
Government Bonds were added as investment securities. There are no securities maturing after
ten years.




                                                  15
Note 5.       Investments and Related Interest (Continued)
September 30                                                 2005             2004
Securities, Held to Maturity (In Thousands):

All Securities (at Amortized Cost)

   German Bonds                                         $1,634,234       $1,712,442
   French Bonds                                          1,257,154        1,148,360
   French Notes                                            601,800          639,470
   Japanese T – Bills                                    1,986,035        3,674,860
   Japanese Financing Bills                                873,863        3,461,847
   Japanese Government Bonds                             2,756,328           -

Total Amortized Cost                                    $9,109,414   $10,636,979

Maturing Within 1 Year

Fair Value:

   German Bonds                                     $     394,080    $     456,630
   French Bonds                                            83,416          132,045
   French Notes                                           248,473           93,452
   Japanese T-Bills                                     1,986,049        3,674,935
   Japanese Financing Bills                               873,863        3,461,862
   Japanese Government Bonds                               88,277            -

Total Fair Value                                    $ 3,674,158      $ 7,818,924

Amortized Cost:

   German Bonds                                     $      377,927   $     439,286
   French Bonds                                             79,400         125,286
   French Notes                                            243,114          91,544
   Japanese T – Bills                                    1,986,035       3,674,860
   Japanese Financing Bills                                873,863       3,461,847
   Japanese Government Bonds                                88,287          -

Total Amortized Cost                                $ 3,648,626      $ 7,792,823




                                               16
Note 5.        Investments and Related Interest (Continued)
Gross Unrealized Holdings Gain (Loss):
   German Bonds                                       $   16,153         $   17,344
   French Bonds                                            4,016              6,759
   French Notes                                            5,359              1,908
   Japanese T-Bills                                           14                  75
   Japanese Financing Bills                                   -                  15
   Japanese Government Bond                                   (10)              -

Total Gross Unrealized Holdings Gain                  $   25,532         $ 26,101

Maturing after 1 Year through 5 Years (German, French Bonds/Notes, & Japanese Bonds)

Fair Value:
    German Bonds                                      $1,316,433         $ 1,168,573
    French Bonds                                       1,244,827           1,075,760
    French Notes                                         371,952             560,932
    Japanese Government Bonds                          2,667,884                -

Total Fair Value                                      $5,601,096         $2,805,265

Amortized Cost:
  German Bonds                                        $1,240,992         $1,109,091
  French Bonds                                         1,177,754          1,023,074
  French Notes                                           358,686            547,926
  Japanese Government Bonds                           2,668,041                -

Total Amortized Cost                                  $5,445,473         $2,680,091

Gross Unrealized Holdings Gain:
   German Bonds                                       $   75,441         $   59,482
   French Bonds                                           67,073             52,686
   French Notes                                           13,266             13,006
   Japanese Government Bonds                               (157)               -

Total Gross Unrealized Holdings Gain (Loss)           $ 155,623          $ 125,174

(Maturing after 5 Years through 10 Years (German Bonds only)

Total Fair Value                                     $    17,472         $ 182,880

Total Amortized Cost                                 $    15,315         $ 164,065

Total Gross Unrealized Holdings Gain                 $     2,157         $   18,815




                                              17
Note 6.        Certificates Issued to Federal Reserve Banks
The Special Drawing Rights Act of 1968 authorized the Secretary of the Treasury to issue
certificates, not to exceed the value of SDR holdings, to the Federal Reserve Bank in return for
interest free dollar amounts equal to the face value of certificates issued (SDR monetization).
The certificates may be issued for the purpose of financing the acquisition of SDRs from other
countries or to provide resources for financing other ESF operations. Certificates issued are to
be redeemed by ESF at such times and in such amounts as the Secretary of the Treasury may
determine (SDR demonetization).

As of September 30, 2005 and September 30, 2004 the amounts of SDR certificates outstanding
were $2.2 billion, while the value of SDR holdings was $8.2 billion and $12.8 billion, for a
difference of $6 billion and $10.6 billion, respectively. During fiscal years 2005 and 2004, ESF
transacted no monetizations or demonetizations.

Note 7.        Foreign Currency Agreements and Guarantees
Foreign Currency Agreements represent swap agreements between Treasury and various
countries that provide for drawings of dollars by those countries and/or drawings of foreign
currencies by Treasury. The Treasury enters into these agreements through the ESF. Any
balances the ESF may hold under such agreements are held for other than trading purposes and
are reflected as Other Foreign Currency Denominated Assets in the Statement of Financial
Position (See Note 3). The ESF is exposed to credit risk on foreign currency agreements in the
event of default by counterparties to the extent of any amounts that have been recorded in the
Statement of Financial Position. Market risk occurs as a result of fluctuations in currency
exchange rates. The ESF is not exposed to market risk on foreign currency agreements that
could occur as a result of fluctuations in currency exchange rates. Under these agreements, the
ESF will receive an agreed upon amount in dollars upon maturity regardless of currency
fluctuations.

ESF enters into guarantee agreements which represent commitments by Treasury with lenders
and/or investors that provide for repayment of all or part of the principal and/or interest on
certain debt obligations of a borrower and/or issuer. ESF is exposed to credit risk on guarantees
in the event it has to honor a guarantee and is unable to recover from the borrower amounts
advanced under the guarantee.

ESF’s foreign currency agreements and guarantees consisted of the following at September 30,
2005 and September 30, 2004:

In April 1994, Treasury signed the North American Framework Agreement, which includes an
Exchange Stabilization Agreement (ESA), with Mexico. The ESA provides for a $3 billion
standing swap line. The amounts and terms (including the assured source of repayment) of any
new borrowings under the North American Framework Agreement would need to be negotiated.
There were no drawings outstanding on these agreements as of September 30, 2005 and 2004. In
December 2004, the Treasury and FRB extended this agreement to December 2005.



                                                18
